<html>
<title> - NOMINATIONS OF HON. CAROL W. POPE, HON. ERNEST E. DUBESTER, AND PATRICK PIZZELLA</title>
<body><pre>[Senate Hearing 113-430]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-430

 
               NOMINATIONS OF HON. CAROL W. POPE, HON. 
                ERNEST E. DUBESTER, AND PATRICK PIZZELLA
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

NOMINATIONS OF HON. CAROL W. POPE, HON. ERNEST W. DUBESTER, AND PATRICK 
       PIZZELLA TO BE MEMBERS, FEDERAL LABOR RELATIONS AUTHORITY

                               __________

                           SEPTEMBER 25, 2013

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
85-504                   WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
       Lawrence B. Novey, Chief Counsel for Governmental Affairs
                  Katherine C. Sybenga, Senior Counsel
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
                   James P. Gelfand, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Tester...............................................     1
    Senator Portman..............................................     3
    Senator Johnson..............................................    13
Prepared statements:
    Senator Tester...............................................    23
    Senator Portman..............................................    25

                               WITNESSES
                     Wednesday, September 25, 2013

Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................     2
Hon. Carol W. Pope to be Member, Federal Labor Relations 
  Authority
    Testimony....................................................     4
    Prepared statement...........................................    26
    Biographical and financial information.......................    28
    Letter from the Office of Government Ethics..................    52
Hon. Ernest W. DuBester to be Member, Federal Labor Relations 
  Authority
    Testimony....................................................     6
    Prepared statement...........................................    54
    Biographical and financial information.......................    56
    Letter from the Office of Government Ethics..................    77
Patrick Pizzella to be Member, Federal Labor Relations Authority
    Testimony....................................................     7
    Prepared statement...........................................    79
    Biographical and financial information.......................    80
    Letter from the Office of Government Ethics..................   104
Letter of Support for Ms. Pope from the Congressional Black 
  Caucus.........................................................   107


                   NOMINATIONS OF HON. CAROL W. POPE,

                  HON. ERNEST W. DUBESTER, AND PATRICK

       PIZZELLA TO BE MEMBERS, FEDERAL LABOR RELATIONS AUTHORITY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Jon Tester, 
presiding.
    Present: Senators Tester, Portman, and Johnson.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I will call to order this hearing of the 
Senate Committee on Homeland Security and Governmental Affairs. 
There will be at least one other person showing up today but I 
just want to thank, first of all, thank the nominees for being 
here.
    We convened this afternoon's hearing to consider the 
nominations of Carol Waller Pope, Ernest DuBester, and Patrick 
Pizzella to serve as Members of the Federal Labor Relations 
Authority (FLRA).
    Carol Waller Pope, Ernest DuBester, and Patrick Pizzella 
have all filed responses to a biographical and financial 
questionnaire, answered prehearing questions submitted by the 
Committee and have had their financial statements reviewed by 
the Office of Government Ethics (OGE).
    Without objection, this information will be a part of the 
hearing record with the exception of the financial data which 
are on file and available for public inspection in the 
Committee offices.
    Carol Waller Pope has over 30 years of experience at the 
FLRA and is the first and only FLRA career employee to serve as 
a member. Most recently, Ms. Pope served as the FLRA's Chairman 
from 2009 through January of this year.
    Under her leadership as Chairman, the FLRA eliminated its 
case backlog, reduced the average age of pending cases by 57 
percent and vastly improved employee satisfaction and morale.
    Ernie DuBester has 35 years of experience in labor-
management relations with nearly 20 years of experience in the 
Federal sector. He has worked as a public servant, advocate, 
mediator, arbitrator, and academic. Mr. DuBester currently 
serves as the Chairman of the FLRA and has been a member since 
2009.
    Patrick Pizzella has 21 years of experience in the 
Executive Branch and has held positions in management and 
administration at six different agencies including the 
Department of Labor (DOL), Office of Personnel Management 
(OPM), and the General Services Administration (GSA). Most 
recently, Mr. Pizzella served as the Assistant Secretary of 
Labor from 2001 to 2009. Additionally, Mr. Pizzella was an 
original member of the Chief Human Capital Officers (CHCO) 
Council.
    I want to thank Ms. Pope, Mr. DuBester, and Mr. Pizzella 
for joining us here today.
    When Senator Portman gets here, we will allow him to do his 
opening statement but I think I will just proceed with the 
oath.
    Our Committee rules require all witnesses at nomination 
hearings to give their testimony under oath. Will the three 
nominees please stand, raise their right hands.
    Do you swear that the testimony you are about to give to 
this Committee will be the truth, the whole truth, and nothing 
but the truth so help you, God?
    Ms. Pope. I do.
    Mr. DuBester. I do.
    Mr. Pizzella. I do.
    Senator Tester. Let the record reflect that the witnesses 
answered in the affirmative.
    We are going to go with your testimony. Each of you have 5 
minutes for your oral testimonies. Your complete written 
testimony will be made a part of the record.
    Ms. Pope, we will have you get started but first we have 
the honor to have Congresswoman Norton here today and so I will 
turn the floor over to you, Congresswoman.

      TESTIMONY OF THE HONORABLE ELEANOR HOLMES NORTON, A 
    REPRESENTATIVE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Senator Tester. I want to 
say how much we appreciate this hearing. I am here to speak, of 
course, for Carol Waller Pope and my appreciation for the 
hearing comes from a fairly unusual circumstance.
    Although I think it has been clear to the Administration 
that Ms. Pope was to be appointed, this career employee, for 
technical reasons, actually retired after 34 years of service 
because her holdover period expired and has to come back to 
Federal service.
    We are particularly proud of Ms. Pope for what she has done 
in the agency and I am going to dispense with the usual 
credentials that one offers when you are presenting a nominee 
for the first time. I mean this is a nominee with a record, 
appointed by two Presidents for membership on the Authority, 
then as chair and now as chair.
    She has been reappointed as chair it seems to me for 
reasons that the President could not ignore. She has taken an 
agency that had real management difficulties and turned it 
around. You mentioned one of the indications.
    But here is an agency that Ms. Pope found in last place 
among small agencies in 2009 among best places to work in the 
Federal Government. Then by 2010 she had already brought it up 
to 20th from 38th and an award for the most improved small 
agency.
    Now, it has risen to 7th best and it ranks in the top five 
small agencies in teamwork and effective leadership.
    Mr. Chairman, I think that summarizes why the President has 
nominated Ms. Pope; and if I may say so, Mr. Chairman, I think 
it is a good reason for this Committee to offer her to the 
Senate floor.
    Thank you very much.
    Senator Tester. Well, thank you, Eleanor, for your very 
kind remarks and I would agree with your testimony.
    Before we get you, Carol, I would ask as we hear from 
Ranking Member Portman and Senator Johnson if he has any 
opening comments.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. I appreciate you 
holding the hearing; and to Congresswoman Holmes Norton, good 
to have you over here on our side of the Capitol; and that is 
meaningful that you would come all the way over here on behalf 
of Ms. Pope.
    I am looking forward to the nominees telling us a little 
more about their background and also what they would like to do 
at the FLRA. I have been on the other side of that table as a 
nominee a couple of times. I know it is always interesting in 
the confirmation process.
    But in this particular case, this comes at a very critical 
time obviously for the Federal Labor Relations Authority 
because it lacks a quorum and is unable to do its work which is 
to adjudicate disputes arising under the Civil Service Reform 
Act (CSRA) and to decide cases concerning the negotiability of 
collective bargaining agreement or proposals, also to hear 
appeals concerning unfair labor practices and representation 
petitions and all important work.
    I am told that over the course of nearly 9 months the 
authority has lacked a quorum, it has developed a backlog of 
well over 100 cases that have yet to be considered and decided.
    So, are you sure you want to do this? Because if you are 
confirmed, one of your most pressing priorities, obviously, is 
going to be to address that backlog and do it in an efficient 
and timely manner but also with high quality decisions.
    It also is going to be essential to attend to some of the 
other statutory responsibilities, to establish policies and 
guidance regarding labor-management relations of the nearly 1.6 
million non-postal Federal employees. So, it is a big job. I am 
glad the Administration and Congress are now taking the 
necessary steps to provide the quorum and to get FLRA back to 
work.
    Even with a full complement of members, as Eleanor has just 
noted, there have been some challenges. We are all aware the 
authority came in dead last on the Partnership for Public 
Services best places to work in the Federal Government surveys 
in 2005, 2007, and 2009.
    I am pleased to note that the FLRA has made significant 
strides in terms of its internal management. It now ranks, as I 
understand it, 8 out of 29 small agencies for employee 
satisfaction. But I am sure we can all agree that there is a 
lot more to be done to be sure the agency works efficiently and 
it is a good place to work so you can attract the best and that 
we can be sure that we are helping foster lawful and productive 
relations between government managers and Federal employees.
    So, thank you, Mr. Chairman, for allowing me to speak 
briefly. I look forward to the testimony from the nominees.
    Senator Tester. Thank you, Senator Portman, we appreciate 
your statement.
    Eleanor, thank you for coming over. We appreciate your 
glowing remarks of Ms. Pope also.
    And, you can proceed, Ms. Pope.

  TESTIMONY OF THE HONORABLE CAROL W. POPE\1\ TO BE A MEMBER, 
               FEDERAL LABOR RELATIONS AUTHORITY

    Ms. Pope. Thank you. Good afternoon. I want to thank the 
Committee and in particular Senators Tester, Portman, and 
Johnson for conducting this hearing. I also want to thank the 
Committee staff for their work and meaningful assistance, and 
finally I want to thank Congresswoman Norton for being here 
today as she has been on two prior occasions that I appeared 
before this Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Pope appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    I admire her illustrious career in the law, civil rights, 
human rights, and public service as the first female Chairman 
of the Equal Employment Opportunity Commission (EEOC) appointed 
by President Carter in 1977.
    While she found her place as an elected representative, I 
found mine as a member and Chairman of the Federal Labor 
Relations Authority. I am honored today and delighted to have 
been nominated by President Obama to serve for a third term as 
member and again serve as Chairman of the FLRA upon 
confirmation.
    As you have noted, I have worked for the last 33 of my 34 
years of public service at the FLRA; and I would be remiss if I 
did not--because the FLRA has been a home for me for so long--
acknowledge all of the FLRA staff here in attendance. It is a 
testament to their interest in the mission of the agency and 
the process that engages and confirms their leaders.
    In particular, I want to acknowledge General Counsel Julia 
Clark, who was appointed by President Obama and confirmed by 
the Senate in 2009; and I appreciate her being here today.
    I also want to acknowledge my family, my sister, Linda 
White, who is representing all of my family, from Philadelphia. 
I am a Pittsburgher but she is from Philadelphia. And, my 
fiance, Fred Grigsby, Jr., who is here from St. Maarten.
    As I said, the mission of the FLRA is an important one. We 
have been described as a small but mighty agency because of the 
breath of our jurisdiction, 1.9 million non-postal employees.
    We do a number of things primarily through our regional 
offices, training, investigations, prosecution of the statute, 
the Federal Service Labor-Management Relations Statute; and one 
of the mission matters that we take seriously is alternative 
dispute resolution to try to resolve disputes without costly 
litigation.
    We do that through a lot of effort that is put into 
education and training. It is our belief that if the parties 
understand their statutory rights and obligations, needless 
litigation will not occur. And so, we do a lot of work 
regarding education and training of the statute.
    When I last appeared before this Committee on September 11, 
2008, the FLRA was plagued with poor mission performance, 
hundreds of unresolved cases, and a dispirited workforce noted 
primarily for low morale. It was not a fun place to be because 
we got notoriety for being the last in the Federal employee 
viewpoint surveys.
    Upon becoming Chairman in February 2009, I instituted an 
internal and external campaign known as the 3Rs--
revitalization, reinvention, and re-engagement. This multi-
pronged, multi-year initiative was geared toward revitalizing 
mission performance as the No. 1 goal and customer service, 
reinventing work processes and service delivery models and re-
engaging our customers to better meet their needs for training 
and timely and quality dispute resolution.
    While the 3Rs initiative helped focus our actions and our 
resources, the FLRA's success over the last 4 years would not 
have been realized without the hard work of all of its 
employees, including those that are mostly unseen and often 
underappreciated.
    Our case intake and publications, human resources, 
administration, and budget offices--all FLRA employees here in 
Washington and Atlanta and Boston and Chicago, and Dallas, 
Denver, and San Francisco--are the agency's greatest assets. 
Together we were successful in eliminating the backlog of 
cases, revising regulations, and renewing a commitment to 
training, education, and alternative dispute resolution.
    I would like to share one other perspective with you. Given 
the fact at the end of my holdover period in January 2013, the 
FLRA was a relatively young agency, 34 years old, and the fact 
that I joined in the agency as a relatively young attorney--age 
omitted from this presentation--I had then served the agency in 
increasingly responsible positions during 97 percent of its 
history.
    So, my careers spans 97 percent of the history of the 
agency. Therefore, I own a unique perspective of both the good 
and the not-so-good of our history and there has been dramatic 
improvement.
    The employees of the FLRA achieved these remarkable results 
but as Chairman I worked together with all of the Presidential 
appointees to provide the leadership and the resources for them 
to unleash their collective energy, skills, and talents.
    Going forward, if confirmed, no matter what the challenge 
is, internal or external, financial, technological, or perhaps 
skill-based, as Chairman I will again work with my 
Presidentially appointed colleagues and employees to implement 
a shared vision that prioritizes our resources in order to 
deliver even better customer service.
    I am honored to appear today with my fellow member 
nominees, Ernest DuBester and Patrick Pizzella. Chairman 
DuBester deserves praise for his management of the agency and 
the Authority for the last 8 months. Without a quorum of 
members issuance of decisions in pending cases before the 
Authority, approximately a third of which are now exceeding our 
internal time targets for issuance of a decision, have been 
stalled.
    Upon conformation, I am eager to join Member DuBester and 
to welcome nominee Pizzella to the FLRA family and get busy 
resolving this backlog of cases.
    The FLRA must also continue to recruit, train, and retain a 
diverse workforce. With the looming possibility of 
governmentwide reorganizations and larger budget reductions, 
the FLRA must continually revise and enhance its work processes 
to ensure that workplace disputes are resolved in a manner that 
promotes effective and efficient government.
    In closing, with respect to the FLRA's statutory mission 
and the role and responsibilities of the position to which I 
have been nominated, I would like to quote President Teddy 
Roosevelt who once stated, ``far and away the best prize that 
life offers is the chance to work hard at work worth doing.''
    I welcome any questions that you may have.
    Senator Tester. Thank you for your statement, Ms. Pope.
    Mr. DuBester, it is your turn.

   TESTIMONY OF THE HONORABLE ERNEST W. DUBESTER\1\ TO BE A 
           MEMBER, FEDERAL LABOR RELATIONS AUTHORITY

    Mr. DuBester. Thank you, Mr. Chairman, Senator Portman, 
Senator Johnson. I greatly appreciate the opportunity to come 
before this Committee again for its consideration of my 
nomination. I also would like to thank the Committee's staff 
for their work and assistance in reviewing my nomination and 
scheduling this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. DuBester appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    Before making a brief opening statement, I would also like 
to introduce my wife, Karen Kremer, who is here. This is the 
year of our 25th anniversary. When I first met Karen, she was 
working for Senator Howell Heflin on the Senate Judiciary 
Committee. So, this body will always have a special meaning for 
me in my personal life.
    It is also a great pleasure to appear alongside my friend 
and colleague, Carol Waller Pope and my new friend and 
hopefully soon to be colleague, Pat Pizzella.
    I also want to recognize the presence here this afternoon, 
in addition to our general counsel, Julie Clark, of quite a few 
people here from the FLRA. As Carol suggested, these dedicated 
public servants, as well as many FLRA staff who are not 
present, are the key to the FLRA's many accomplishments of the 
last 4 years.
    It is an honor to appear before this Committee after being 
nominated again by President Obama. As you noted, I have served 
as a member of the FLRA for the last 4 years and have been 
privileged to serve as its Chairman since January.
    When I last appeared before this Committee, then-Senator 
Akaka noted that big changes were needed because for far too 
long the FLRA had failed to carry out its mission.
    With a serious backlog of cases existing then and low 
employee morale that has been referred to by Carol and 
Representative Norton, and I think by you, Mr. Chairman, I 
would say too that, indeed, big changes have occurred.
    The last 4 years reflect many accomplishments at the FLRA 
based on an energetic period, as Carol put it, of the 3Rs--
revitalization, reinvention, and re-engagement.
    At the end of the last calendar year, not only had we 
completely eliminated our case backlog but we had eliminated 
all over-age cases. In addition, exercising our statutory 
responsibility to provide leadership in labor-management 
relations, we delivered a variety of training sessions to 
thousands of labor and management representatives in the 
Federal sector community; and with the agency focused on human 
capital initiatives such as training and development, 
performance management, and work life balance, as has already 
been suggested, employee morale I believe has improved 
dramatically.
    And, for the last 2 years, we have ranked in the top 10 and 
we have received No. 3 rankings in the specific categories of 
teamwork and effective leadership. So, I know that is 
gratifying to many and certainly to Carol and myself.
    So, Mr. Chairman, in my nearly 40 years of experience in 
labor-management relations, working as you noted in a variety 
of capacities with more than a majority of my professional life 
now in the Federal sector, I remain strongly committed to the 
FLRA's mission and to the importance of stable, constructive 
labor-management relations in the Federal sector.
    If reconfirmed, I will continue to work tirelessly so the 
FLRA is recognized as one of the stellar agencies in the 
Federal Government. And again, I appreciate the opportunity to 
be with you today and I would also be pleased to answer any 
questions that you have.
    Senator Tester. Thank you, Mr. DuBester. Mr. Pizzella.

TESTIMONY OF PATRICK PIZZELLA\1\ TO BE A MEMBER, FEDERAL LABOR 
                      RELATIONS AUTHORITY

    Mr. Pizzella. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pizzella appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    Before I begin I would like to recognize my wife, Mary Joy, 
who previously served at the Department of Energy (DOE), the 
State Department, and the General Services Administration. So 
there is no shortage of Federal service in our family.
    Chairman Tester, Senator Portman, and Senator Johnson, and 
other Members of the Committee, I want to thank you and your 
staff for all the courtesies you may have shown me as I 
prepared for this hearing.
    Given the seriousness of the issues that surround you on 
the eve of the new fiscal year, I am especially appreciative of 
the time that you are taking to ensure that the Federal Labor 
Relations Authority operates at full strength.
    This is the third time I have had the privilege of being 
nominated by a President for a position of public trust. I am 
honored the President nominated me to be a member of the 
Federal Labor Relations Authority; and if confirmed, I will 
dedicate myself to discharging of the responsibilities of the 
FLRA in accordance with laws, rules, and regulations.
    I began my tenure in Federal service in the early 1980s, 
and I believe my 21 years of experience in the Executive Branch 
will be an asset to the FLRA.
    I will be happy to answer any questions you may have.
    Senator Tester. Thank you, Mr. Pizzella.
    I appreciate all of your testimonies. We are going to start 
with standard questions that we ask all nominees.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Pope. No.
    Mr. DuBester. No.
    Mr. Pizzella. No.
    Senator Tester. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Pope. No.
    Mr. DuBester. No.
    Mr. Pizzella. No.
    Senator Tester. Do you agree with our reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Ms. Pope. Yes.
    Mr. DuBester. Yes.
    Mr. Pizzella. Yes, sir.
    Senator Tester. I want to thank you. And, would the clerk 
to put 7 minutes on the clock, and we will have as many rounds 
as necessary.
    I am going to start with you, Ms. Pope. I am pleased we are 
able to hold this hearing today for all of you and I hope to 
get you all moving through the pipeline very quickly. As you 
all know too well, this lack of quorum on the authority has 
really prevented many cases from coming to an ultimate 
decision, and we owe Federal employees, we owe them to have a 
fully functioning FLRA.
    So with that as a background, Ms. Pope, what is the biggest 
issue facing the FLRA today?
    Ms. Pope. I would say for the authority side of the house 
it is our backlog of cases.
    Senator Tester. Uh-huh.
    Ms. Pope. It was tremendous that we worked together 
pursuant to a corrective action plan that was approved by the 
Office of Management and Budget (OMB) to erase our backlog 
before; and I certainly want to make that our priority because 
it was demoralizing to our employees that we had a case backlog 
and that we were not performing our mission effectively and 
efficiently; and I know we can do it again because we have done 
it before.
    We certainly have fewer cases now than we did before. In 
addition to issuing case, decisions that are currently 
backlogged, one of the important issues for the FLRA is to 
continue to maintain a staff that is nimble and trained because 
we do know that, as there are issues in government with regard 
to organizations, furloughs, closures that we see an increase 
in cases; and those are the most important cases for us to be 
able to address in a timely manner.
    So, to eradicate our backlog, positions us to be able to 
handle the inventory as it comes in a timely way. Our internal 
time targets are 180 days; and when we were successful in 
erasing our backlog, we had reduced our average age to 50 days 
and we can do it again.
    Senator Tester. I would assume that the lack of quorum has 
contributed to that backlog and maybe contributed to the fact 
that the staff is not as nimble, I do not want to put words in 
anybody's mouth, but does not have the flexibility that you 
want. A fair statement, if you agree that is fine. Are there 
other things that the lack of quorum has done to impact the 
FLRA's ability?
    Ms. Pope. I know that some of the senior leadership 
positions, particularly those reporting to a Member, staff 
attorneys on a Member's staff, out of respect for the Members 
opportunity to select their senior staff, in some regard those 
positions have been kept open.
    I also believe that from my experience as chairman, I 
benefited from having a full complement of Presidential 
appointees to collaborate with on administrative matters, on 
budget matters. And so, it is important to the overall 
administration of the agency that we have a quorum of all 
Presidential appointees, particularly Members.
    Senator Tester. I would agree.
    Mr. DuBester, I will ask you a question here. After 
spending a career working in various capacities which you have 
referenced and so did I, including the National Labor Relations 
Board, the National Mediations Board, and the FLRA, what 
experiences have you found most helpful to your role as a 
member on the FLRA?
    Mr. DuBester. Well, there are so many of them; but if I had 
to single one out that I think has the broadest and deepest 
rippling effects, it would be serving for many years as a 
mediator and also acquiring, related to that, the special 
skills as a teacher and a trainer in the art of collaborative 
problem-solving.
    And, I think we have put an emphasis for the last 4 years 
and will continue to do so to complement what I would call our 
traditionally regarded mission, if you will, with working with 
the agency and union reps that we serve to get them to think of 
us in nontraditional ways and to consider using our 
collaborative alternative dispute resolution skills, because by 
doing so we accomplish a lot.
    We certainly help parties with their relationships but it 
is more than just about the personal human side of the 
relationship. We help them to solve a lot of their 
disagreements internally on their own without getting involved 
in protracted litigation proceedings, if you will, which are 
very costly.
    So, we help them to conserve some of their scarce resources 
at a time when everyone feels the need to do more with less.
    And so, we also have integrated the Alternative Dispute 
Resolution (ADR) into our own culture internally. Virtually 
every office, and certainly every component, starting with our 
impasse panel, which by definition is an alternative dispute 
resolution operation, our office of General Counsel, and even 
within the authority side we have an Office of Alternative 
Dispute Resolution and we work with the parties even involving 
some of the cases that we have jurisdiction over.
    For example, with negotiability decisions we will put our 
alternative dispute resolution office staff in contact with the 
parties before we engage in formal decisionmaking, and often we 
are able to help them in a negotiability dispute either to 
resolve the case completely, to narrow the disagreements over a 
number of proposals or at least to narrow their differences 
within proposals.
    And, I think that all, of this has a valuable effect not 
just for our mission performance but, if you will, throughout 
the Federal Government, because that is another piece about our 
mission that I think is sometimes overlooked.
    And, if I could just add to the answer to the question that 
you asked previously about the greatest problem facing the 
FLRA, it is making sure that we have the adequate resources to 
perform our mission; and again why I think that is so important 
is it is not just about what I would call the seeming self-
interest of the FLRA per se but we have responsibilities 
throughout the Federal Government to help provide for stable, 
constructive labor-management relations.
    And if we are unable to do that, then there are 
consequences throughout the Federal Government. People at 
agencies with disputes are less able to perform their mission 
because they are either distracted by the costs of litigation 
or the time necessary to deal with those disputes.
    So, I think that is an important recognition about the 
importance of our work too.
    Senator Tester. I appreciate your answer and I appreciate 
you delving into other areas too.
    Mr. Pizzella, I was going to get to you but my time is 
about out. We are going to have another round so the next time 
around we will do it. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    We talked earlier about this backlog and the Chairman just 
asked some questions about it. I was interested, Mr. DuBester, 
in your focus on adjudicating disputes, as you say in your 
testimony, fairly, impartially, and expeditiously; and you 
mentioned in your response to the question of collaborative 
dispute resolution.
    I know through your career you have emphasized the 
importance of ADR in addressing conflicts that might otherwise 
go to litigation. Can you talk just a little about what hurdles 
remain, what role can it play in reducing the backlog at FLRA 
and what hurdles there are to having that happen. What, might 
be done to expand its use, for instance, more training to labor 
and management representatives to try to reduce frivolous 
filings and facilitate avenues for those parties to resolve 
disagreements even on their own? Is that part of what you would 
recommend or not?
    And then if I might, Ms. Pope, you talked a little about 
what you did last time, which I think resulted in an 87 percent 
reduction in case inventory. You said it was an even larger 
inventory backlog.
    What did you learn and what is your view on ADR? And do you 
share the perspective Mr. DuBester talked about earlier?
    So, starting with you, Mr. DuBester.
    Mr. DuBester. Thank you, Senator. Well, first on the 
current backlog, again just to provide context, as we 
recognized, the first phase I would say is to go back to 2009. 
We were facing a backlog then of approximately 450 cases within 
the authority component; and I think, as Carol mentioned in her 
opening statement, a critical action plan had been put into 
effect to deal with that; and as I mentioned in my statement, 
by the end of last calendar year not only had we eliminated 
that backlog but we had completely eliminated any over-age 
cases.
    So, the backlog that you are referring to now, of course, 
is the one created by the absence of a quorum this year. Any 
over-age case in my mind is a serious matter even if it is one.
    We have a number of cases now that have started to 
constitute a backlog. It is less than 100 in my opinion. I 
think you should know, though, we have been operating--but for 
the very serious matter of not being able to issue decisions 
absent a quorum--we have been operating in all other respects 
in a normal fashion; and within the authority component, that 
means within our three respective staffs, they have been 
considering cases, moving them along, moving them to me for 
consideration.
    And, every time I get a case on my desk, I vote on it, the 
point being that hopefully there is an efficiency in that so 
that with Carol and Pat, hopefully to be confirmed by the 
Senate, their work will be reduced or the authority's work will 
be reduced because it will have progressed to the next stage.
    With respect to training, again two things about that. 
Training is very much an important part of what Carol and I 
have referred to as one of the 3Rs which is re-engagement 
although part of the training also involves our own people and 
our own staff.
    But with respect to training and what I would call the 
collaborative problem-solving kind of skills, we have done that 
in a variety of ways. We have done that just from our own ADR 
office based on contacts and communications we have directly 
with management reps and union reps in the Federal sector.
    We have also done that in concert with the National Council 
on Labor-Management Forums, which were created by the 
President's Executive Order (EO) to create those and the idea 
of creating, as a complement to collective bargaining if you 
will, more effective and efficient government operations 
hopefully doing so in a way that provides for a more 
cooperative and collaborative relationship.
    So, a lot of training has been done as part of that 
initiative, and I think it is a very important part of our 
outreach, and we have done some of that on our own, as I said, 
and we have done some of that in concert with our sister agency 
the Federal Mediation and Conciliation Service.
    And, we have a lot of anecdotal but real stories within 
various agencies where their relationships have improved 
dramatically even in the last 4 years which creates for a more 
effective and efficient day-to-day operation of their missions.
    So, yes, that remains a very important part----
    Senator Portman. Let me just interject just for a second 
because I want to get to Ms. Pope and get to Mr. Pizzella. But 
do you have any hurdles right now to getting more ADR in place 
to doing the training, to try to avoid some of these frivolous 
lawsuits, to doing more administratively? What are the 
challenges you face?
    And then getting to Ms. Pope, are you supportive of this 
way to get more efficiency through ADR and administrative 
avenues rather than full adjudication where appropriate?
    Mr. DuBester. Sure. Very quickly, two parts. I would say, 
as I mentioned, I think if there is a hurdle for us, it is 
making sure that we have adequate resources and that includes 
budgetary resources that we can continue to do, if you will, 
the outreach and external communications that we have done, and 
we are hopeful that we can continue to do that.
    The barriers we have are the barriers you have with any 
relationship. Again, we have participated with the National 
Council on Labor-Management Forums. Part of that Council has a 
problem resolution committee. Our General Counsel who has been 
introduced here, Julia Clark, has been kind of heading that 
along with a large group of management and union 
representatives.
    And, the barriers that you have, well, we have a lot of 
improvements in relationships and a lot of stories to show 
that. But we still have difficulties with issues of trust or 
communication which are key to any relationship, not just 
labor-management relations.
    But it takes time. It takes work making parties aware of 
the services that we have to provide training and working with 
them is a valued task but it takes work and we are prepared to 
continue that work.
    Senator Portman. Thank you. Ms. Pope.
    Ms. Pope. I want to speak first to the backlog of cases and 
we have the experience of reducing and eliminating the backlog. 
Before, by way of contrast, there were 300 backlogged cases and 
we have a little over 100, 140 or so now.
    Part of the tools and processes that we implemented to 
address that will help serve us well with regard to the current 
backlog. So, we are ahead of the game, so to speak, with regard 
to revisions in our regulations that we implemented over the 
last 4 years that encourage, in the arbitration area, expedited 
decisions, also opportunities throughout for ADR.
    We have had the successful experience of using ADR in our 
negotiability cases and success in that area is not just 
resolving the entire case. In the negotiability area where the 
parties are bogged down in their contract negotiations, and 
sometimes it is a sad story to tell but in the Federal sector, 
negotiations for a collective bargaining agreement can go on 
for years.
    And, they come to us with a case where there are 30, 40 
proposals where there are issues as to whether the parties have 
to negotiate at all, not whether they should agree but whether 
it is negotiable. And, we have been successful in implementing 
ADR and aggressive in going to the parties.
    I am wholeheartedly supportive of ADR. But one of the 
hurdles is it is voluntary, and we have been successful in 
employing a team of not just our ADR experts from our 
collaborative alternative dispute resolution office but teaming 
them with attorneys from each of the members' staff who, 
dividing the proposals, the pending proposals in a case and 
each member office does research on a third of the pending 
proposals to work with the ADR official to provide the legal 
background and context to help the parties understand and agree 
during the ADR process where there is case precedent that their 
proposal has already been deemed negotiable or nonnegotiable.
    That has really been a great team effort and that is the 
kind of work----
    Senator Portman. It helps expedite the process.
    Ms. Pope. Exactly.
    Senator Portman. My time has expired. Mr. Pizzella, this 
means that Mr. Johnson is going to be really tough on you 
because you avoided both of us.
    But just to put emphasis on one point you made which was 
you changed the administrative rules regarding arbitration to 
have them work more flexibly, as I understand it, and speaking 
as one member and I think I probably speak for the other 
members, this is something we would want to be able to 
encourage you to do but also to assist you if there are any 
legislative hurdles or anything else we can do from our point 
of view.
    And, thank you Mr. Chairman.
    Ms. Pope. Thank you.
    Senator Tester. Thank you, Senator Portman. Senator 
Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Pizzella, you can breathe a sigh of relief here.
    Mr. DuBester, I believe I heard Ms. Pope say that the 
backlog is a hundred, maybe 140. Is it as high as 114? What is 
the backlog right now?
    Mr. DuBester. I am not exactly sure. It depends on how you 
count but 140 might be just cases that are in our inventory.
    Senator Johnson. OK.
    Mr. DuBester. I would not consider all of those cases to be 
part of the backlog because they have not processed through in 
terms of our time lines, if you will, that make them even 
approaching over-age yet.
    So, I think the number is less than that but I think 140 is 
what is in our inventory but those cases still are not what I 
would call in the problem or danger zone.
    Senator Johnson. You mentioned as you have been the only 
member you still have been basically working the process of 
reviewing these cases and voting on them. How many are really 
in a state that is going to be ready when the authority is 
completed or you have a full membership can very quickly be 
adjudicated or settled?
    Mr. DuBester. Well, of course, part of that depends upon 
how quickly this body confirms my colleagues up here.
    Senator Johnson. I understand.
    Mr. DuBester. But right now I would say the number is 
approaching 50 and quite frankly I have a few cases on my desk 
to vote on so I am hoping it could be certainly in the 60-65 
range.
    Senator Johnson. So, almost half could be really settled 
quite quickly, dispose of, and then you have a pretty 
reasonable backlog then.
    Mr. DuBester. I believe that is a fair characterization. 
Yes.
    Senator Johnson. I would kind of like to understand the 
process. I am new to really understanding what the FLRA is. So, 
can you talk about the priority of reviewing these cases? Is it 
just a first-come-first-served basis? Are there particular 
issues that potentially rank a little higher in terms of your 
review, Ms. Pope.
    Ms. Pope. One of the things that we did when we had a 
backlog of 300 cases was to not just address it as first-in 
first-out, because as we attack the backlog, newer cases also 
became over-aged if we just work on over-aged cases.
    So, the process is such that when an appeal is filed with 
the Authority, it is assigned in rotation to one of the three 
members. Each of the three members has a legal staff that 
reviews the case, develops the legal issues, the research, and 
makes recommendations for their members vote and circulates 
that written information to all of the members for their votes.
    Sometimes cases are easily resolved; and when we were 
addressing a backlog, we tried to, in essence, look at the 
whole body of cases and not just wait until they came to a 
member but to assign a group of staff to look over all.
    Can we group cases with regard to legal issues? Can some, 
notwithstanding the fact that they are younger, go out so we 
can clear the decks for older cases?
    We really triaged cases and will continue to do so 
hopefully if I am confirmed, because it is important to look at 
the issues and not just the date it was filed.
    Senator Johnson. Obviously, working together as colleagues 
on the Authority, do you know each other pretty well? I would 
think, Ms. Pope, Mr. DuBester, each other pretty well.
    Ms. Pope. Over the course of the last 4 years we have 
gotten to know each other very well.
    Senator Johnson. What about Mr. Pizzella?
    Mr. Pizzella. I just met them in the last month.
    Senator Johnson. Brand-new. Could you just tell me what 
areas all three of you will basically agree on? Are there any 
areas where you may be in greater disagreement on? Let me start 
with Mr. Pizzella.
    Mr. Pizzella. Thank you, Senator.
    I certainly think the obvious thing which is to address the 
backlog. As long as there is a backlog, sort of an overhang on 
the Authority's work, there will be continual questions from 
the customer community, from Members of Congress, as to why 
things are not being addressed.
    So, that would certainly be my immediate focus; and unlike 
my two potential colleagues here, they have had some years of 
experience at reviewing cases; and Ernie himself has had, I 
guess, 8 or 9 months here where he has had the cases to 
himself.
    So, I am probably going to have to take a little time to 
get up to speed but I intend to make that the focus of my job 
there.
    Senator Johnson. Do you anticipate any philosophical 
differences? Are we going to see a lot of 2-1 decisions or is 
it going to be a lot of 3-0 decisions?
    Mr. Pizzella. If I can convince them to come with me, there 
will be a lot of 3-0 decisions. [Laughter.]
    But I do not really have a general answer to that. I will 
exercise my authorities and give my opinion, which is the 
charge I would have if being confirmed, and understanding that 
I can count and sometimes it will be 2-1 one way and sometimes 
it will be 3-0 but I will have to live with whatever the 
decisions are.
    Mr. DuBester. But for context if I could just say this, in 
the 4-years or little less than 4 years that I served to the 
end of the last calendar year when we had a quorum, I think I 
participated in something like 700 decisions. And while I do 
not have the precise math, and while recognizing that we are 
all individuals and certainly that would apply to Pat, Pat is 
an individual, but I would say with the prior full complement 
of members that we had, we probably agreed on somewhere between 
80 and 85 percent of the decisions that we issued. They were 
unanimous 3-0.
    I have talked to Pat enough to know that we root for the 
same sports teams. We have a lot of other things in common. I 
am confident that percentage is not going to change 
dramatically and I predict that is probably what it would be. 
So, the overwhelming majority would be unanimous decisions but 
there will be some 2-1 decisions.
    Senator Johnson. Is that because there is a fair amount of 
clarity in the law or is it because there is really a meeting 
of the minds in terms of the philosophy of the decisionmaking, 
Ms. Pope?
    Ms. Pope. I certainly have been guided by the 67 volumes of 
case law that have been developed by the Authority over the 34 
years of implementing the statute; and if you start with the 
case law and applying the facts, then that is where there may 
or may not be a point of demarcation but there is a lot of 
clarity in the law after 34 years.
    There are newer issues, legal issues that are unprecedented 
and that is where we look to private sector law and also 
develop newer case law for the Authority.
    So, it is not so much my philosophical bias, if you will, 
it is the case law that guides the decisionmaking.
    Senator Johnson. I am glad to hear that. Thank you.
    Thank you, Mr. Chairman.
    Senator Tester. Thank you, Senator. I very much appreciate 
the questions.
    Mr. Pizzella, you spent a number of years at the Department 
of Labor as Assistant Secretary. Can you relate how those 
experiences at Labor may help you as a member of this Committee 
of the FLRA?
    Mr. Pizzella. In a couple of fashions. So to speak, I was a 
customer of the FLRA from time to time because some of the 
disputes at the department if we could not resolve them at the 
department, they might work their way to the FLRA.
    The objective of an Assistant Secretary was always trying 
to solve any issues whether it is EEOC or labor-management ones 
in the department and address them early before they fester and 
then work their way up the food chain and then they need to 
leave the department to be decided by a body like the FLRA.
    In my time at the department, one of the things that I was 
engaged in was the three collective bargaining agreements that 
the department entered into with its employees; and I learned a 
great deal from that. I was administering those as an Assistant 
Secretary. I was not in all the negotiations but I was in 
constant contact with certainly the management team and I met 
with the labor team also.
    So, I had a little bit of a first hand experience from that 
side of the equation as to what really goes on in some of these 
disputes and negotiations; and I think that may help me have a 
little understanding of when an appeal comes to the FLRA as to 
what might have went on before it got there.
    Senator Tester. I appreciate that. This is a question for 
all three of you. It deals with transparency. I want to know: 
Is it an essential part of leadership? If it is, how does 
transparency play within the FLRA?
    Ms. Pope. I think transparency is an essential part of 
leadership and we cannot be effective as the leaders of the 
agency without transparency.
    For us during the years that I was Chairman, we basically 
invited all of the career leadership in to collaborate on 
policy matters, pay and performance matters as well as 
representatives of the employees.
    We instituted new ways to communicate and we published our 
budget in a newly implemented weekly electronic newsletter that 
went out nationwide. We improved technology so that employees 
could also communicate with us.
    We set up an internal Web site for employees to ask 
questions anonymously. We also had a Web site where they could 
post questions. Transparency was also achieved through the 
first-ever town hall meeting where we met with employees and 
told them everything they wanted to know and we were responsive 
to questions that they posted on the message board anonymously.
    So, we have employed a number of tools. One of the things I 
learned is to be transparent you cannot communicate enough and 
also you have to listen.
    Senator Tester. Mr. DuBester.
    Mr. DuBester. Well, I agree completely. Again as people who 
know me in any hat I am wearing, the key to successful labor-
management relations whether you are a leader or not is 
communication; and a big part of communication is sharing 
information and that applies to the business internally within 
the agency of trying to share with managers as well as 
employees through whatever mechanism, what is going on, what 
the problems are, what your tough decisions are, and where you 
are going.
    But it is a two-way street. I mean, the other part of 
transparency is being open to receiving information from those 
groups as well. And, I think if they feel like you are 
transparent one-way, you are going to be receiving the input of 
your employees whether they are managers or employees. So that 
is important.
    For our stakeholders externally, it is very important and 
it is a big part of what the business is all about as a leader, 
as a mediator, to respect the rights of labor and management 
reps to choose and decide what information they want to share 
with the other side. I always encourage them to share 
information. To me that is the key to a successful 
relationship.
    That does not mean soliciting agreement, and people always 
get confused about the difference between what I would call an 
environment that fosters transparency and the sharing of 
information as opposed to sometimes you just cannot agree but 
that is OK.
    Senator Tester. That is right. Mr. Pizzella.
    Mr. Pizzella. I am a strong believer in transparency; but 
in addition to our stakeholders, sometimes I know this from my 
experience in the Department of Labor and elsewhere, when 
agencies tend to talk about their stakeholders, sometimes they 
omit the biggest stakeholder of all which is the taxpayer.
    So, I would like to see us bring some transparency to there 
to make sure taxpayers are aware of what we are doing. It is 
very easy to be confined here inside the Beltway, especially 
with the Authority which jurisdiction is Federal employees and 
Federal agencies, but there is a taxpayer involvement.
    Senator Tester. Thank you.
    Mr. Pizzella, you are an original member of the CHCO 
Council?
    Mr. Pizzella. Yes, sir.
    Senator Tester. What did you learn about the similarities 
and differences facing Federal agencies in the realm of labor 
relations?
    Mr. Pizzella. I learned that some have absolutely no 
interest or problem or concern. They are usually the smaller 
agencies.
    Senator Tester. Yes.
    Mr. Pizzella. And then, I learned that most of the agencies 
that I thought were complaining about the labor relations were 
ones who sort of avoided making, what I thought would be 
considered tough decisions. They did not want to spend a lot of 
time on labor relations.
    Their agencies had missions and directions from the 
Secretary or Administrator of an agency and sometimes labor 
relations would take a backseat, often it would take a 
backseat.
    The only time they would really get raised up the flagpole 
is when it impacts a decision that is trying to be implemented. 
So, outreach to agencies to make them understand the importance 
of resolving issues perhaps before they get too far down the 
pipeline I think would help agencies rather than have them 
frustrated.
    Senator Tester. Thank you. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Mr. Pizzella, you got short shrift earlier but you got more 
air time recently. Just focusing on what you said a moment ago 
which is one of your stakeholders is the taxpayer and that 
leads me to question about your budget because, even though you 
are a small agency, in today's budget environment, we looked 
everywhere, under every rock, for ways to find efficiencies and 
find ways to save money.
    I understand your direct obligations for fiscal year 2013 
were almost $25 million, $24.9 million and your request for 
next fiscal year is for $25.9 million. And, this is directed to 
all three of you because, Mr. DuBester, particularly you were 
very involved in that budget I am sure.
    So, first of all, I would like to get your insights on the 
personnel side. I assume that accounts for 80, 85 percent of 
your budget. A lot of agencies are going through some tough 
times right now freezing employee numbers, some reducing 
employees. You have asked for a 4-percent increase in personnel 
from 2013 to 2014 and you have talked about that today, the 
need for adequate resources.
    This would be about a 15 percent growth in your staffing 
levels since 2009, as I look at it. So, my question for you, 
starting with you, Mr. Pizzella, since you talked about the 
taxpayer. Again, I understand you have not been through the 
budget process probably, at least you have not been in a 
position to have to go through it in the way your colleagues 
have. But do you think that increase is necessary given the 
budget climate that we are in?
    Mr. Pizzella. Senator, having served as Assistant Secretary 
while you were director of OMB I glad to see you have not 
changed a bit.
    Senator Portman. Exactly.
    Mr. Pizzella. It really would be unfair of me to, I think, 
comment on the budget simply because having put together 
budgets before, I do not know what went into the formulation of 
the budget. Saying this, I am very proud of the time at the 
Department of Labor where, under Secretary Elaine Chao's 
leadership we had, for 8 years, we ended up with a smaller 
discretionary budget in our eighth year than the first year.
    And so, I am a bit of a skinflint and I will certainly try 
to conserve the taxpayer's money as best I can. I would think 
that OMB probably has a mark as far as the rate of growth that 
they would allow agencies to pursue, if I remember the process 
well; and I would hope we live within that mark. I guess I 
would leave it at that.
    Senator Portman. Yes. I was happy to see your background at 
Labor both because you were on the management side in some of 
these disputes that you are now going to be working on and so 
you have had some experience in disputes at least from the 
management side. But second, Secretary Chao was my favorite 
Secretary when I was at OMB.
    Mr. Pizzella. Mine too.
    Senator Portman. Not just because she is a great lady but 
because the meetings were much more conducive to a negotiated 
settlement. You guys did a really good job of going through 
your individual departments and trying to figure out how you 
could find savings, particularly on the administrative side.
    So, you kept to your mission but you were able to find 
savings. Some other Secretaries who will remain unnamed because 
they are still very active in town and in politics, who were 
not quite as easy because they would come in at 10 or 20 
percent above and we would have to spend a lot of time 
whittling it down.
    And frankly, you are in a better position to know where you 
can find those savings than OMB. So, my question I guess is at 
a time when we are looking at another year of flat domestic 
spending and you guys, and again, Mr. DuBester and Ms. Pope, 
are asking for an increase, is it absolutely necessary--is this 
something that you have spent time figuring out how you could 
avoid and just what are your thoughts on the budget?
    Mr. DuBester. Let me make three points, if I can.
    The first thing I want to say is the interest of the 
taxpayer, if you will, and not only because of the realities of 
the current environment we are in but at any moment in time I 
think our statutory directive to help produce more efficient, 
effective government operations requires us to consider the 
interest of the taxpayer, if you would.
    I would say to you respectfully, and my guess is you 
probably could check it out, but I think not only hopefully up 
here on Capitol Hill but within the Office of Management and 
Budget, I think we have developed a reputation over the last 
few years of recognizing what it means to do more with less and 
doing a lot of creative things to accomplish our mission 
objectives while conserving money and I will just say that as 
just kind of a foundation question.
    The second point I would like to make, though, is just one 
of context because obviously the last couple of years have 
created a unique environment. But I think it is fair to say 
particularly because as you accurately suggested, Senator 
Portman, the human element, our staffing if you will, is not 
only the greatest expense but it is also the key to our mission 
performance.
    Only 10 years ago we had a third larger-sized workforce 
than we have today. I guess the point I am making just for 
context is that even before we hit the more severe budgetary 
environment of, say, the last couple of years, we had already 
downsized by about a third which I think is a meaningful 
context from recent years. And, that is a position where we 
lost some key people.
    And third, to make it more immediate, during this last year 
in particular where we have been facing, as everyone in the 
Federal Government has, the severe challenges of budgetary 
constraints, we left open a lot of critical positions. I want 
to say about 13 that we have just started to fill.
    And, you asked about barriers and my answer to the question 
about barriers going forward in terms of achieving what I hope 
you would agree are a lot of these successes externally with 
the labor-management community in the Federal sector and my 
response was, having the adequate resources to continue to 
perform our mission related responsibilities.
    So, we had 13 vacancies in key areas and we only had, I 
want to say four, maybe even three, additional positions 
created for the fiscal year 2014 budget. And, I will tell you 
one of them is within our Office on Collaboration Alternative 
Dispute Resolution just because of the increased demands on 
that service.
    We are not sure, as I sit here with you today, that we are 
going to be able to fill that but that is part of the ask that 
we have that you are referring to which to me is very important 
and I think again has rippling, positive rippling effects 
throughout the Federal Government, not just for the FLRA 
internally.
    So, those are some of the tough issues and the choices that 
we are balancing. That is what I wanted to share.
    Senator Portman. My time has expired but if the Chairman 
will indulge me just 1 second for Ms. Pope on the budget issue, 
any final comments.
    Ms. Pope. Just to add----
    Senator Portman. You can just say I agree or disagree.
    Ms. Pope. I agree with everything that has been said but I 
would like to add one or two additional points, and that is, 
during my tenure as Chairman, we started out in an effort to 
rebuild the agency and we had been decimated not only from a 
prior recission, but because we were not managed effectively to 
use our resources wisely.
    But one of the things we did starting out was with the 
Presidential appointees in the room and representatives of the 
career employees to say we are not just going to go OMB to ask 
for the same amount of resources that we had before.
    We are going to look at what we can do differently with 
respect to our work processes and we developed a very good 
relationship with OMB to negotiate and get their understanding 
that we needed funds to rebuild, that our requests were not 
unreasonable because we had been decimated in our staffing. 
Performance was poor, and we needed additional monies.
    With the budget amount that we would receive every year, we 
would internally look to manage our resources in the most 
effective way. We have shared staff. We have detailed employees 
internally because we made a decision that our budget would not 
support filling all of the positions that were in our budget.
    We also look to use technology to better improve our 
customer delivery without the cost of travel, and we have also 
shared services other agencies whereas an agency budgeted at 
the 22, 23, 24 million dollar level of the FLRA, we could not 
afford to keep up with technology in an environment where 80 
percent of our budget is staff driven.
    We have partnered with the Veterans Administration, the 
Department of Defense to use their technology resources to 
build web-based manuals, webinars hosted by OPM on their dime 
to also save our resources so we would not impact adversely the 
delivery of our services.
    So, we continued to look for ways to use resources in an 
effective way and to not just come to the Senate and ask for 
more money.
    Senator Portman. Thank you. I appreciate that response and 
I look forward to the FLRA having a full complement to be able 
to do its work and I thank the Chairman for giving me a little 
extra time here. I wish you all the best of luck.
    Mr. DuBester. Thank you, Senator.
    Senator Tester. Thank you, Senator Portman.
    For the record, for Ms. Pope or Mr. DuBester, what was the 
peak number of employees that you guys employed? What was the 
highest member?
    Mr. DuBester. In history?
    Senator Tester. FLRA, yes. And when was it?
    Ms. Pope. I would say almost in 2003 maybe was a peak year. 
We had about 200 employees if not more.
    Senator Tester. And you have today how many?
    Ms. Pope. On board, 114. Well, we are funded at the 123 
level. I think there are around 113 or 114.
    Senator Tester. That 110, 113 level does not include the 10 
or 13 people that you are looking to fill positions right now.
    Mr. DuBester. Yes. I think our number is just a little bit 
higher than that but, no, I think at the end I think it is 
right. I think at our peak we actually were closer to, as Carol 
said, a little more than 200, probably about 220.
    What we are seeking authorization for in our fiscal year 
2014 budget is to get to 134. So, that would be still obviously 
almost a 45 percent lower full-time equivalent authorization 
than we had.
    Senator Tester. I understand that. And you have a ton of 
really good employees obviously and some of them are here in 
the room today. I guess the question is when you drop that 
number of employees and assuming you would have had a quorum to 
work with and your numbers are in good shape, I mean, I think 
it says a lot about you and it says a lot about the employees 
that work in the agency.
    But the question is really how do you determine that sweet 
spot, because Senator Portman is right. We are looking under 
every rock for dollars. Anybody want to answer that? It is not 
an easy question to answer. How do you determine when enough is 
enough and you do not need anymore?
    Ms. Pope. The staffing levels certainly are part of the 
equation with regard to how we define timeliness of a case.
    Senator Tester. OK.
    Ms. Pope. And what we set our time targets for.
    Senator Tester. So, what are the parameters that you use to 
determine that.
    Ms. Pope. One hundred eighty days for cases before the 
Authority, certain cases by statute less, 120 days before the 
Office of the General Counsel, and various time targets in the 
other components and offices.
    Senator Tester. In the days when you had a quorum, did you 
meet those standards?
    Ms. Pope. We did in the last 2 years.
    Senator Tester. Good. That is good. That is a very good 
thing.
    First of all, I want to thank you guys for your testimony. 
I very much appreciate you taking the time out of your busy 
schedule to be here. I want to thank you for your willingness 
to serve.
    As I said in my opening statement, I hope that we can get 
you guys through the process as quickly as possible. I can tell 
you that I think all three of you will work together. I hope 
there are times when you disagree and I hope there are times 
you are going to agree and hopefully it is not a cantankerous 
environment and I do not think it will. I do not think your 
personalities indicate that at all.
    So, thank you for being here today and thank you for your 
testimony.
    Without objection, the hearing record will be kept open for 
24 hours for any additional comments and for any questions that 
might be submitted for the record.
    With that, this hearing is adjourned.

    [Whereupon, at 3:41 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
